No. 20-__
INTHE

ss,uprtmt Qtourt of tbt llnittb ss,tatt�
States of NEW YORK, CONNECTICUT,
NEW JERSEY, RHODE ISLAND, and WASHINGTON,
and Commonwealths of MASSACHUSETTS
and VIRGINIA,
Petitioners,
V.

UNITED STATES DEPARTMENT OF JUSTICE,
WILLIAM P. BARR, as Attorney General
of the United States,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the document contains
8,935 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 7, 2020.

Colin Casey Jlgan
Wilson-Epes Printing Co., Inc.

